WAIVER

Supreme Court, U.S.
FILED

NOV 2 1 2019
SUPREME COURT OF THE UNITED STAVAE OF THE CLERK
Supreme Court Case No

19-552

William Salzwedel

v.

California et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

County of Ventura, California

0 I am a member of the Bar of the Supreme Court of the United States.

E I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

*at

November 13, 2019

(Type or print) Name

WA k,/ll)

00k)gf

D Mr. 0 Ms. 0 Mrs.
Firm

Ventura County Counsel's Office

Address

800 S. Victoria Avenue

City & State
Phone

D Miss

Ventura, CA

805-654-2879

Zip 93009
marty.wolter@ventura.org
Email

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: William A. Sa:zwedel, Jeffrey Rich, Kevin McCormick, John Barlow, Jeffrey Belton

RECEIVED
DEC - 2 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

